APPENDIX A

NINTH CIRCUIT MEMORANDUM
AFFIRMING CONVICTION

APP. 1

Case: 18-30145, 05/01/2020, ID: 11677651, DktEntry: 43-1, Page 1 of 3

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
MAY 1 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,

No.

Plaintiff-Appellee,

U.S. COURT OF APPEALS

18-30145

D.C. No. 1:15-cr-00172-AA-1

v.

MEMORANDUM*

EMMANUEL OLUWATOSIN KAZEEM,
Defendant-Appellant.
Appeal from the United States District Court
for the District of Oregon
Ann L. Aiken, District Judge, Presiding
Submitted March 2, 2020**
Portland, Oregon
Before: WOLLMAN,*** FERNANDEZ, and PAEZ, Circuit Judges.
Emmanuel Oluwatosin Kazeem was found guilty of one count of conspiracy
to commit mail and wire fraud, in violation of 18 U.S.C. §§ 1349, 1341, and 1343,

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
***

The Honorable Roger L. Wollman, United States Circuit Judge for the
U.S. Court of Appeals for the Eighth Circuit, sitting by designation.
APP. 2

Case: 18-30145, 05/01/2020, ID: 11677651, DktEntry: 43-1, Page 2 of 3

five counts of mail fraud, in violation of 18 U.S.C. § 1341, four counts of wire
fraud, in violation of 18 U.S.C. § 1343, and nine counts of aggravated identity
theft, in violation of 18 U.S.C. § 1028A(a)(1) and (c)(5). We affirm the judgment
and sentence, but we vacate the restitution portion of Kazeem’s judgment and
remand for clarification regarding Kazeem’s payment obligation.
Kazeem argues that the district court clearly erred by excluding certain time
under the Speedy Trial Act’s “ends of justice” exception. See 18 U.S.C.
§ 3161(h)(7); United States v. Butz, 982 F.2d 1378, 1380 (9th Cir. 1993)
(reviewing the district court’s factual findings regarding speedy trial violations for
clear error and questions of law de novo). We conclude that the district court had
valid reasons for twice granting continuance motions in this complex case
involving multiple codefendants. The court did not clearly err in finding the
additional time excludable under the “ends of justice” exception. See Butz, 982
F.2d at 1381. (“[T]rial delay due to the continuance granted to [a defendant’s]
codefendants applies to [the defendant] as excludable time.”).
Kazeem also challenges his sentence, arguing that the district court
incorrectly applied the intended loss instead of actual loss from his tax fraud
scheme and used an unverifiable loss amount to determine his base offense level.
As to both issues, we disagree. The district court properly used the loss Kazeem
intended to cause in his tax returns scheme, rather than the loss Kazeem actually

2

APP. 3

18-30145

Case: 18-30145, 05/01/2020, ID: 11677651, DktEntry: 43-1, Page 3 of 3

caused. See United States v. Santos, 527 F.3d 1003, 1008 (9th Cir. 2008) (“[T]he
district court may reasonably infer that the participants in a counterfeiting scheme
intend to take as much as they know they can.”). Moreover, the intended loss
calculation was verifiable because the Internal Revenue Service’s agent testified
that it was calculated only from those tax returns directly linked to Kazeem or one
of his coconspirators.
The district court ordered Kazeem to pay more than $12 million in
restitution to the victims of his crimes. The written judgment states that the entire
amount is “due immediately,” but it also sets out a schedule of monthly payments
that Kazeem must make when released from custody. Because the restitution
schedule is “internally inconsistent,” we vacate it and remand the case for a
clarification of Kazeem’s payment obligations. See United States v. Holden, 908
F.3d 395, 404 (9th Cir. 2018).
AFFIRMED IN PART, REMANDED IN PART

3

APP. 4

18-30145

APPENDIX B

NINTH CIRCUIT ORDER DENYING
PETITION FOR REHEARING

APP. 5

Case: 18-30145, 09/02/2020, ID: 11810563, DktEntry: 47, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
SEP 2 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,

No.

Plaintiff-Appellee,

18-30145

D.C. No. 1:15-cr-00172-AA-1
District of Oregon,
Medford

v.
EMMANUEL OLUWATOSIN KAZEEM,

ORDER

Defendant-Appellant.
Before: WOLLMAN,* FERNANDEZ, and PAEZ, Circuit Judges.
The panel votes to deny the petition for rehearing.
The full court has been advised of the petition for rehearing en banc, and no
judge has requested a vote on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The petition for panel hearing and petition for rehearing en banc are
DENIED.

*

The Honorable Roger L. Wollman, United States Circuit Judge for the
U.S. Court of Appeals for the Eighth Circuit, sitting by designation.
APP. 6

APPENDIX C

DOCKET ENTRY 111, NOV. 8, 2016
GRANTING GOVERNMENT’S MOTION
TO CONTINUE TRIAL

APP. 7

APP. 8

APPENDIX D

DISTRICT COURT’S ORDER DENYING
MOTION TO DISMISS ON GROUNDS OF
STA VIOLATION

APP. 9

Case 1:15-cr-00172-AA

Document 195

Filed 07/24/17

Page 1 of 12

IN THE UNITED STATES DISTRICT .COURT
FOR THE DISTRICT OF OREGON
MEDFORD DIVISION

UNITED STATES OF AMERICA,
Plaintiff,

No. 1:15-cr-00172-AA-01

v.

OPINION AND ORDER

EMMANUEL OLUWATOSIN
KAZEEM,
Defendant.
AIKEN, District Judge.
This matter comes before me on Defendant Emmanuel Kazeem's Motion to Dismiss for
violation of the Speedy Trial Act. ECF No. 178. The motion is DENIED.
LEGAL STANDARD
The Speedy Trial Act, 18 U.S.C. § 3161, provides that when a defendant enters a plea of
not guilty, the trial of the defendant shall commence within seventy days of either (1) the filing
of the indictment or (2) the defendant's first appearance, whichever is later.

18 U.S.C. §

3161 (c)(1 ). In cases involving multiple defendants who are joined for trial, the period of seventy
days is deemed to begin on the date of the indictment or arraignment of the latest codefendant.

Henderson v. United States, 476 U.S. 321, 323 n.2 (1986). The seventy-day period of all
codefendants is measured with respect to that of the latest codefendant. Id. In cases involving
multiple defendants, when the defendants have not been severed, any exclusion or delay that

Page l - ORDER

APP. 10

Case 1:15-cr-00172-AA

Document 195

Filed 07/24/17

Page 2 of 12

applies to one defendant will apply to the others. United States v. Daychild, 357 F.3d 1082, 1091
(9th Cir. 2004).
The seventy-day period is subject to a number of exclusions.

The two exclusions

relevant to this motion are:
A reasonable period of delay when the defendant is joined for trial with a
codefendant as to whom the time for trial has not run and no motion for severance
has been granted.
18 U.S.C. § 3161(h)(6) (the ')oinder of defendants" exclusion); and
Any period of delay resulting from a continuance granted by any judge on his
own motion or at the request of the defendant or his counsel or at the request of
the attorney for the Government, if the judge granted such continuance on the
basis of his findings that the ends of justice served by taking such action outweigh
the best interest of the public and the defendant in a speedy trial. No such period
of delay resulting from a continuance granted by the court in accordance with this
paragraph shall be excludable under this subsection unless the court sets forth, in
the record of the case, either orally or in writing, its reasons for finding that the
ends of justice served by the granting of such continuance outweigh the best
interests of the public and the defendant in a speedy trial.
18 U.S.C. § 3161(h)(7)(A) (the "ends of justice" exclusion).
In determining whether the "ends of justice" exclusion should apply, the statute sets forth
a non-exhaustive list of factors for the court to consider. These include:
(i) Whether the failure to grant such a continuance in the proceeding would be

likely to make a continuation of such proceeding impossible, or result in a
miscarriage of justice.
(ii) Whether the case is so unusual or so complex, due to the number of
defendants, the nature of the prosecution, or the existence of novel questions of
fact or law, that it is unreasonable to expect adequate preparation for pretrial
proceedings or for the trial itself within the time limits established by this section.
(iii) Whether, in a case in which arrest precedes indictment, delay in the filing of
the indictment is caused because the arrest occurs at a time such that it is
unreasonable to expect return and filing of the indictment within the period
specified in section 3161 (b), or because the facts upon which the grand jury must
base its determination are unusual or complex.
(iv) Whether the failure to grant such a continuance in a case which, taken as a
whole, is not so unusual or so complex as to fall within clause (ii), would deny the
defendant reasonable time to obtain counsel, would unreasonably deny the

Page2

ORDER

APP. 11

Case 1:15-cr-00172-AA

Document 195

Filed 07/24/17

Page 3 of 12

defendant or the Government continuity of counsel, or would deny counsel for the
defendant or the attorney for the Government the reasonable time necessary for
effective preparation, taking into account the exercise of due diligence.
18 U.S.C. § 316l(h)(7)(B).
Of particular note, no exclusion may be granted under § 3161(h)(7)(A) "because of
general congestion of the court's calendar, or lack of diligent preparation or failure to obtain
available witnesses on the part of the attorney for the Government." 18 U.S.C. § 3161(h)(7)(C).
If a defendant is not brought to trial within seventy days, after tallying the exclusions

provided in § 3161 (h), then the information or indictment must be dismissed on the defendant's
motion. 18 U.S.C. § 3162(a)(2). The defendant must make the motion before trial commences
or a guilty plea is entered and the defendant bears the burden on the motion. Id.

BACKGROUND
Defendant, along with four codefendants, is charged with Conspiracy to Commit Mail
and Wire Fraud, Mail Fraud, Wire Fraud, and Aggravated Identity Theft. ECF No. 3. Defendant
was arraigned on May 22, 2015, and was ordered detained on the charges. ECF Nos. 23, 24.
The last of the codefendants, Lateef Animawun ("Animawun") and Oluwaseunara Osanyinbi
("Osanyinbi") made their first appearances on June 22, 2015. ECF No. 48, 52.
On July 6, 201

the Court deemed this case to be complex and set trial for January 26,

2016. Defendant agreed to the continuance. ECF No. 61. Defendants jointly moved to continue
the trial date several times. These continuances were granted and have not been challenged.
ECF Nos. 90, 97. On July 29, 2016, all defendants once again jointly moved to continue the
trial. The Court agreed to the continuance and set trial for November 22, 2016, with a status
conference to be held on October 31, 2016. ECF No. 103.

Page 3 - ORDER

APP. 12

Case 1:15-cr-00172-AA

Document 195

Filed 07/24/17

Page 4 of 12

On October 31, 2016, Defendant reported to the Magistrate Judge that he was prepared to
go to trial. ECF No. 104. As no pretrial conference had been scheduled and no pretrial motion
schedule set, the Magistrate Judge scheduled a status conference with this Court on November 8,
2016.
On November 8, 2016, Defendant reported that he was prepared to proceed to trial. At
the time of the status conference, the codefendants had indicated that they would likely enter
guilty pleas, although only one of the codefendants had actually accepted a plea agreement at the
time of the hearing. The offers made to all other codefendants had expired on August 31, 2016,
and no other offers had been extended.

Mem. Supp. Ex. B, at 5.

ECF No. 179-2.

The

codefendants had also jointly moved for a continuance. ECF No. 110.
The Court determined that it would not be possible to summon a jury for trial on
November 22, 2016. Mem. Supp. Ex. B, at 6-7.
Defendant indicated that he intended to file evidentiary motions and other motions in
limine before trial. The Government moved to continue the trial for ninety days, based on the
complexity of the case and the number of witnesses and exhibits involved. Mem. Supp. Ex. B, at
10, 12. Defendant objected to the continuance. Mem. Supp. Ex. B, at 10, 13-14. The Court
found that in light of the complexity of the case; the need for pretrial conferral between counsel
and pretrial motions practice; and the importance of trying all codefendants together, a
continuance was warranted and that the time would be excluded for purposes of the Speedy Trial
Act. Mem. Supp.

B at 14; ECF No. 111. In deference to Defendant's counsel's schedule,

trial was set for March 7, 2017. Mem. Supp. Ex. B, at 13-14.
In December 2016, codefendant Oluwamuyiwa Olawoye ("Olawoye") fired his attorney
and, on January 4, 2017, retained new counsel. ECF No. 123. Although it had been anticipated

Page 4 - ORDER

APP. 13

Case 1:15-cr-00172-AA

Document 195

Filed 07/24/17

Page 5 of 12

that Olawoye would accept a plea agreement, the change of counsel cast that understanding into
doubt. On January 27, 2017, Olawoye moved to continue the trial date in order to allow his new
counsel to review the voluminous discovery materials and properly advise his client on how to
proceed. ECF Nos. 125, 126. The Court found that a continuance was once again justified and
granted the motion on February 2, 2017. The Court set trial for Defendant and the remaining
two codefendants for May 30, 2017. ECF No. 129.
Due to an email filing mistake, Defendant's counsel did not see the electronic notification
for Olawoye's motion and did not file an objection before the Court granted the continuance. On
February 6, 2017, Defendant filed an objection to the continuance, requesting that the trial go
forward on March 7, 2017, as previously scheduled. In the alternative, Defendant moved to
sever his case from the remaining codefendants and moved for pretrial release. ECF No. 131.
The Court held a hearing on Defendant's objections on February 28, 2017. ECF No. 135. At
that hearing, the Court denied Defendant's motion to sever and reaffirmed the earlier-granted
continuance. Defendant's counsel represented that he would be on vacation for all of May and
June and so the Court set another hearing for March 17, 2017, to pick a new trial date. Mem.
Supp. Ex. C, at 20. ECF No. 180.
On March 17, 2017, the Court conferred with the parties and set trial for July 31, 2017, in
order to allow time for pretrial motions after Defendant's counsel returned from his vacation.
This period was also excluded from the Speedy Trial clock.
followed on July 10, 2017. ECF No. 178.

Page 5 - ORDER

APP. 14

ECF No. 136.

This motion

Case 1:15-cr-00172-AA

Document 195

Filed 07/24/17

Page 6 of 12

DISCUSSION

The Court held a hearing on this motion on July 21, 2017. ECF No. 190. Defendant
contends that this Court erred in continuing the trial date on November 8, 2016, and on February
2, 2017, and in excluding that time under the Speedy Trial Act. Defendant contends that those
continuances were not properly excluded and that the indictment must be dismissed. As both of
the contested periods are longer than seventy days and Defendant does not assert that the Speedy
Trial clock was otherwise exceeded, the Court will not include a detailed reckoning of the count
of excluded and non-excluded days.
As a preliminary matter, the district court is not required to document the findings
supporting a continuance contemporaneously with the granting of the continuance and may
record those findings for the first time in response to a motion to dismiss. See United States v.

Bryant, 726 F.2d 510, 511 (9th Cir. 1984) ("Although the Act requires that the trial court prepare
a record, we find nothing in either the language or the purpose of the Act that requires the court
to prepare the record at the precise moment it grants a continuance."); United States v. Medina,
524 F.3d 974, 986 (9th Cir. 2008) (a district court may document its findings for the first time
when ruling on a motion to dismiss).
I.

The November 8, 2016 Continuance

Defendant is charged with Conspiracy to Commit Mail and Wire Fraud, along with four
codefendants.

"Generally, defendants who are indicted together in federal court should be

jointly tried."

United States v. Tootick, 952 F.2d 1078, 1080 (9th Cir. 1991 ).

"It is well

established that an exclusion from the Speedy Trial clock for one defendant applies to all
codefendants." United States v. Messer, 197 F.3d 330, 336 (9th Cir. 1999).

In calculating the

Speedy Trial clock for a defendant, the court may exclude a "reasonable period of delay when

Page 6 ORDER

APP. 15

Case 1:15-cr-00172-AA

Document 195

Filed 07/24/17

Page 7 of 12

the defendant is joined for trial with a codefendant as to whom the time for trial has not run and
no motion for severance has been granted." 18 U.S.C. § 3161(h)(6); see also United States v.
Moniz, 73 F. App'x 981, 983 (9th Cir. 2003) ("Moniz's delay was caused by the district court's
attempt to achieve [§ 3161(h)(6)' s] purpose of effectuating a joint trial.").
To determine the reasonableness of the delay, "courts look particularly to whether the
delay was necessary to [effectuate a joint trial] and to whether there was any actual prejudice
suffered by" the defendant. United States v. Hall, 181 F .3d 1057, 1062 (9th Cir. 1999) (internal
quotation marks and citation omitted). However, this is not a simple two-factor test. Rather,
"the proper test is whether the totality of the circumstances warrants a conclusion that the delay
was unreasonable."

Messer, 197 F.3d at 338.

Delays are unreasonable where the primary

purpose of the delay is to permit the codefendant to pursue plea negotiations and where the delay
prejudices the defendant's defense. Hall, 181 F.3d at 1062.
In this case, the Court's decision to grant the continuance on November 8, 2016, was
guided by the principle that Defendant should be tried together with his codefendants. The Court
carefully weighed the potential for prejudice before making its decision, noting especially that
Defendant remained in custody pending trial. Although the other defendants had indicated a
likelihood that they would enter into plea agreements, the Government represented to the Court
that only one codefendant had actually done so and that the plea offers for the other defendants
had been allowed to expire. Mem. Supp. Ex. B, at 5. Counsel for the other defendants indicated
that they were wading through the voluminous discovery materials so that they could advise their
clients as to their potential exposure. Mem. Supp. Ex. B, at 4. While the Court was aware of the
possibility that codefendants would enter pleas, the continuance was not granted in order to

Page 7 - ORDER

APP. 16

Case 1:15-cr-00172-AA

Document 195

Filed 07/24/17

Page 8 of 12

allow them to pursue those negotiations, but rather to ensure a joint trial. 1 Defendant has not
made any showing that his own defense was prejudiced by the delay. 2 Nor did Defendant
request a severance at this juncture. 3 Based on the totality of the circumstances, the Court
concluded that the continuance was reasonable as to ensure that all codefendants would be tried
together.
The Court also noted that Defendant first reported his readiness for trial to the Magistrate
Judge on October 31, 2016. The Court determined that there was not enough time for pretrial
motions and other trial preparations between the November 8, 2016, hearing and a November 22,
2016, trial date, even taking into account the exercise of due diligence on the part of the
attorneys.

This assessment has been substantiated by the lengthy trial preparations still

underway. 4 The Court was satisfied that this delay was not the result of a lack of diligent
preparation on the part of the Government's attorney, or of a failure to obtain available
witnesses.
The Court acknowledges that it discussed issues that would not justify a continuance,
such as indications that a plea agreement might still be a possibility. See Mem. Supp. Ex. B, at
7-9, at 10-11. Plea negotiations are not a valid basis for granting a continuance. United States v.

1

The Court noted specifically that "[I]t's important, I think, that we proceed to resolve those other defendants and
set them all at the same time." Mem. Supp. Ex. B., at 14.
2
In United States v. Hall, 181 F .3d l 057 (9th Cir. 1999), the Ninth Circuit held that a delay was unreasonable
because it was granted to allow the codefendant to negotiate a plea agreement that included testifying against the
defendant, thereby prejudicing his defense. Id at 1062-63. As previously noted, the continuances in this case were
not granted for the purpose of allowing codefendants to proceed with plea negotiations. The codefendants are not
expected to testify against Defendant.
3
Although a defendant is not required to make a motion to sever, the making of such a motion is a factor to be
weighed in assessing the reasonableness of the delay. United States v. Messer, 197 F.3d 330, 338, 340 (9th Cir.
1999). At oral argument, Defendant contended that the Court should have inferred the existence of an implied
motion to sever based on his objection to the continuance.
4
In particular, the Court notes that Defendant did not request the services of a Yoruba interpreter until June 26,
2017, for the trial to be held on July 31, 2017. ECF No. 165. The Court encountered substantial difficulties in
meeting this need, given the lateness of the request and the rarity of qualified Yoruba interpreters. Defendant had
not requested this essential service by November 8, 2016, despite his claimed readiness for trial on November 22,
2016.

Page 8 - ORDER

APP. 17

Case 1:15-cr-00172-AA

Document 195

Filed 07/24/17

Page 9 of 12

Medina, 524 F.3d 974, 986 (9th Cir. 2008). While the Court did consider the possibility of a
plea agreement as part of a larger strategy of case management, it did not grant the
Government's motion to continue the trial on that basis. Similarly, the Court considered and
remarked upon general issues of scheduling and the difficulty of summoning a jury by November
22, 2016, but did not grant the continuance based on the congestion of the Court's calendar.
The Court determined that, in light of the complexity of the case, the importance of joint
trial for all codefendants, and the need for the parties to prepare, file, and resolve pretrial
motions, a continuance was in the best interests of justice and that it outweighed the interests of
the public and Defendant in a speedy trial. Accordingly, the Court continued the trial to March
7, 2017, and excluded the period of the continuance from the Speedy Trial clock. Defendant has
not met his burden of showing a Speedy Trial Act violation based on the November 8, 2016,
continuance.
II.

The February 2, 2017 Continuance
As noted above, the Court granted the February 2, 2017, continuance based on the motion

of the attorney for Olawoye. The motion indicated that it was not opposed by the Government,
but was silent as to Defendant's position. As the Court later discovered, Defendant's counsel
had misfiled the email notification alerting him to the motion and only discovered its existence
when the Court granted the continuance. Defendant filed objections to the motion on February
6, 2017. The Court recognized that it should have made inquiries as to Defendant's position
before granting the motion, see United States v. Lloyd, 125 F.3d 1263 (9th Cir. 1997), and
promptly set a hearing to rectify the error and resolve Defendant's objections. The Court held
the hearing on February 28, 2017, before the previously excluded time had elapsed. After

Page 9 - ORDER

APP. 18

Case 1:15-cr-00172-AA

Document 195

Filed 07/24/17

Page 10 of 12

hearing Defendant's objections, as well as statements from the Government and counsel for the
codefendants, the Court reaffirmed the earlier grant of the continuance. 5
As in the case of the earlier continuance, discussed above, the Court's decision to grant
the February 2, 2017, continuance was guided by the principle that Defendant should be tried
together with his codefendants. Although all parties had previously understood that Olawoye
would enter into a plea agreement with the Government, he fired his attorney in December 2016
and retained new counsel in January 2017. These changes cast doubt on the parties' prior
understanding about the disposition of Olawoye's case. The volume of discovery in this case
and its complexity was such that Olawoye's new attorney would not be able to adequately
prepare for the March 7, 2017, trial date. At the hearing on February 28, 2017, Olawoye's
attorney advised the Court that trial remained a possibility and that, despite his diligence and the
cooperation of the Government, he required the additional time to prepare for trial and to
competently advise his client. Mem. Supp.

C, at 8-9. ECF No. 180.

Defendant moved to sever as part of his objection to the continuance.

Joint trials

"promote efficiency and serve the interests of justice by avoiding the scandal and inequity of
inconsistent verdicts." Zafiro v. United States, 506 U.S. 534, 537 (1993) (internal quotation
marks and citation omitted). Federal Rule of Criminal Procedure 14 provides that a court may
sever defendants' trials if a consolidation for trial "appears to prejudice a defendant or the
government."

Fed. R. Crim. P. 14(a).

Severance is warranted only when "joinder is so

manifestly prejudicial that it outweighs the dominant concern with judicial economy and
compels the exercise of the court's discretion to sever." United States v. Brashier, 548 F.2d

5
During the February 28, 2017, hearing, the Court informed the parties that the March 7, 2017, trial date was no
longer a possibility. See Mem. Supp. Ex.Cat 13-14. This should not be interpreted to mean that the Court was not
considering Defendant's objections to the continuance, only that the Court would need to set a different trial date, no
matter how it resolved the objections.

Page 10-0RDER

APP. 19

Case 1:15-cr-00172-AA

Document 195

Filed 07/24/17

Page 11 of 12

1315, 1323-24 (9th Cir. 1976). The Ninth Circuit has held that joint trials are "particularly
appropriate where the co-defendants are charged with conspiracy, because the concern for
judicial efficiency is less likely to be outweighed by the possible prejudice to the defendants
when much of the same evidence would be admissible against each of them in separate trials."
United States v. Fernandez, 388 F.3d 1199, 1242 (9th Cir. 2004). The Supreme Court has

further held that severance should not be granted unless "there is a serious risk that a joint trial
would compromise a specific trial right of one of the defendants, or prevent the jury from
making a reliable judgment about guilt or innocence." Zafiro, 506 U.S. at 539. Defendant did
not address these requirements, or any legal standards, when he presented his motion to sever.
The Court did not find that joinder of defendants was so manifestly prejudicial as to compel
severance, especially in light of the conspiracy charges involved, and denied the motion.
Given the complexity of the case and the need for adequate and effective trial
preparation, the Court determined that the continuance requested by Olawoye served the ends of
justice and that it outweighed the defendant's and the public's interest in a speedy trial. For the
purposes of ensuring a joint trial, the Court once again considered the reasonableness of the
delay, still cognizant of the fact that Defendant remained in custody pending trial and that
Defendant had now moved for severance. The Court heard from Olawoye's counsel and was
satisfied that this was not simply a continuance to allow him to negotiate a plea agreement. 6
Defendant did not articulate any prejudice to his own defense that would result from the
continuance.

6

At the February 28, 2017, hearing, the Court asked Olawoye's new counsel for his position and he responded that,
although he would prefer to avoid a trial and was trying to work out a settlement, "[l]t is a complex case and the
record is reflecting, you know, half a million pages of discovery, I wouldn't know if an offer was made, which one
has not been made yet, if it's a reasonable offer or not, and so that's why I would need additional time, not only to
prepare for a trial if that were to occur but even to advise my client. ... [Olawoye is] aware of all the proceedings
that are going on, and he's-he's anxious to hear my advice as to how to proceed as well." Mem. Supp. Ex. C, at 89 (emphasis added).

Page 11 - ORDER

APP. 20

Case 1:15-cr-00172-AA

Document 195

Filed 07/24/17

Page 12 of 12

In light of the complexity of the case and the totality of the circumstances, the Court
determined that the continuance was justified in order to ensure that Defendant and Olawoye
would be tried together.

Once again, the Court remarked upon general issues of case

management, such as plea agreements or scheduling for specific days, but the Court did not base
its decision on those issues. The period covered by this continuance was properly excluded from
the Speedy Trial clock. Defendant has not met his burden of showing a Speedy Trial Act
violation based on the February 2, 2017, continuance.
CONCLUSION

As the challenged continuances were properly granted pursuant to 18 U.S.C. § 3161 (h)(6)
and (h)(7)(A), the Court finds no violation of the Speedy Trial Act.
Kazeem's Motion to Dismiss is DENIED.
:lJ

Defendant Emmanuel

/<ft~

It is so ORDERED and DATED this~of July, 2017.

~~

Ann Aiken
United States District Judge

Page 12 - ORDER

APP. 21

APPENDIX E

CODEFENDANTS’ MOTION TO CONTINUE
TRIAL STATING ALL PLEADING GUILTY
EXCEPT KAZEEM

APP. 22

Case 1:15-cr-00172-AA

1

Document 110

4

TERRY R. KOLKEY
Attorney at Law, State Bar # 3115
2305-C Ashland Street #510
Ashland, OR 97520
(541) 512-1040
fax: (800) 637-7457
email: trkolkey@gmail.com

5

Attorney for Defendant

2
3

Filed 11/08/16

Page 1 of 8

6
7

UNITED STATES DISTRICT COURT

8

FOR THE DISTRICT OF OREGON

9
10
11

UNITED STATES OF AMERICA,

12

Plaintiff,

13
14

vs.

15

LATEEF ANIMAWUN et al.,

16

Defendants.

17
18

)
)
)
)
)
)
)
)
)
)
)

CASE NO. CR 15-00172 AA
CR 16-00062 AA
MOTION TO CONTINUE
JURY TRIAL AND TO
EXCLUDE TIME

Defendant, Lateef Animawun, through his attorney, Terry Kolkey,

19

moves this court for an Order to continue the Jury Trial and the Status

20

Conference.

21
22
23

Attorney Robert Stone on behalf of his client Mr. Olayowe, and attorney
Justin Rosas on behalf of his client Mr. Dehinbo join in this motion.
In case number 16‐CR‐00062 AA, defendant, Michael Kazeem,

24

represented by Donald Scales, is charged separately for allegedly committing

25

most of the same offenses charged against the five defendants in the present

26

case. Michael Kazeem’s trial had previously been scheduled for the same date

27

as the trial in the present matter. Attorney Donald Scales joins in this motion

28

for a continuance.

APP. 23

1

Case 1:15-cr-00172-AA

1

Document 110

Filed 11/08/16

Page 2 of 8

Mr. Kolkey, Mr. Stone and Mr. Scales are requesting a continuance of

2

120 days. Mr. Rosas requests a continuance of 45 days and objects to a

3

continuance of 120 days.

4
5
6
7

I left a message for Assistant United States Attorney Byron Chatfield
about this motion, but have not yet received a response.
This motion is made upon the grounds stated in the attached declaration
of counsel.

8
9

Dated: November 8, 2016

Terry Kolkey

10

Terry Kolkey

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

APP. 24

2

Case 1:15-cr-00172-AA

Document 110

Filed 11/08/16

Page 3 of 8

1
2

5

TERRY R. KOLKEY
Attorney at Law, State Bar # 3115
2305-C Ashland Street #510
Ashland, OR 97520
(541) 512-1040

6

Attorney for Defendant

3
4

7
8

UNITED STATES DISTRICT COURT

9

FOR THE DISTRICT OF OREGON

10
11
12
13
14
15
16
17
18
19
20
21
22
23

UNITED STATES OF AMERICA, )
)
Plaintiff,
)
)
)
vs.
)
)
LATEEF ANIMAWUN,
)
)
Defendants.
)
I, Terry Kolkey, declare that:
1.

I represent Lateef Animawun in the above‐entitled matter.

2.

A jury trial is scheduled for November 22, 2016.

3.

The case has been declared complex.

4.

Mr. Animawun and four co‐defendants have been charged with one (1)
count of conspiracy to commit mail fraud, in violation of 18 U.S.C. 1349;
seven (7) counts of mail fraud, in violation of 18 U.S.C. 1341, six (6)

25

counts of wire fraud, in violation of 18 U.S.C. 1343, and thirteen (13)

26
28

DECLARATION OF COUNSEL
IN SUPPORT OF MOTION TO
CONTINUE TRIAL

_________________________________)

24

27

CASE NO. CR-15-00172 AA
CR-15-00062 AA

counts of aggravated identity theft, in violation of 18 U.S.C. 1028A.
4.

The discovery includes materials with more than 450,000 pages. In
addition, there are 39 mirror images of computers, external hard drives,
APP. 25

3

Case 1:15-cr-00172-AA

Document 110

Filed 11/08/16

Page 4 of 8

1

and cell phones, which contain hundreds of thousands of additional

2

documents and objects. The total data is approximately 2 TB.

3

5.

The government alleges that the six defendants obtained stolen

4

personal identifying information (PII) of more than 250,000 individuals

5

and used that information to file fraudulent federal and state tax returns.

6

It is alleged that the defendants, whether working separately or

7

jointly, attempted to obtain over $25 million dollars in tax refunds and

8

actually obtained over $4.7 million dollars.

9

6.

The government alleges that Emmanuel Kazeem obtained tens of

10

thousands of PII from an overseas hacker, and that Kazeem then divided

11

this information amongst the co‐defendants and other individuals.

12

Thousands of PIIs came from an Oregon database, CICS Employment

13

Services in Lincoln City, Oregon.

14

7.

The government claims that the process used by the defendants to file

15

false tax returns required several steps. First, after the defendants

16

acquired PIIs, they obtained E‐file PINs from the IRS for each individual

17

whose personal information that they had obtained. Next, they got pre‐

18

paid debit cards in the name of each individual or opened a bank

19

account in the name of a third party. They then obtained disposable

20

email accounts and used those accounts to file false tax returns using

21

online tax software such as TurboTax. The IRS paid refunds directly to

22

the pre‐paid debit cards the defendants had obtained or to the third

23

party bank accounts they set up. According to the government, the

24

defendants then wired money to Nigeria using Western Union.

25

8.

The government claims that the defendants either separately or jointly

26

filed over 8,000 false tax returns, and that Mr. Animawun filed

27

approximately 900 false tax returns. It claims that Mr. Animawun

28

attempted to obtain millions of dollars in returns. The government,

APP. 26

4

Case 1:15-cr-00172-AA

Document 110

Filed 11/08/16

Page 5 of 8

1

however, has offered a plea agreement in which the sentence is not

2

limited to the amount of intended loss that the government claims it

3

can prove at the present time. The plea offer allows the government to

4

offer proof at sentencing that Mr. Animawun was responsible for up to

5

five times the intended loss that it claims it now can prove.

6

9.

The defense of course cannot accept the government’s offer unless

7

it can verify the government’s numbers. The discovery, however, that

8

has been provided is not organized into subjects, types of documents, or

9

categories of objects. It consists of flash drives, discs, and hard drives

10

that contain hundreds of thousand of documents and objects that are

11

labeled only by a number without any identifying information. For

12

example, the first discovery release came as a flash drive with

13

225,380 pages of PDF documents. Each document was labeled

14

EK 0000001 to EK 00225380. There have now been 14 total discovery

15

releases, and the last number was EK 00478222. The discovery

16

also contains the native file for each of the PDF files. As mentioned

17

above, in addition to the bates‐numbered discovery, the defense has

18

also been given 39 mirror images of computers, cell phones, and thumb

19

drives.

20

10.

The defense not only has to locate all of the relevant documents

21

amongst the immense mass of irrelevant documents and objects,

22

but it has to find links from each false tax return to the individual

23

defendants.

24

11.

Recently, the government provided spread sheets that listed

25

each false tax return for which it claims each one of the defendants

26

is individually responsible. A few days ago, an IRS agent personally

27

informed counsel of the best method of finding the links between the tax

28

returns and the defendants using the new spread sheets. The process of

APP. 27

5

Case 1:15-cr-00172-AA

Document 110

Filed 11/08/16

Page 6 of 8

1

following the links will be a meticulous, time‐consuming endeavor. In

2

order to facilitate this process, I am having my database rebuilt to make

3

it easier and quicker to conduct these searches. I have discovered,

4

however, that some of the PDFs are missing very important information

5

that is contained in the native files. I do not know yet how much

6

this issue will slow down the process. It is my understanding that the

7

IRS agent conducts searches using native files.

8

12.

9

As mentioned above, the government, however, is not limiting
its case to what it claims are provable links to the defendant at the

10

present time, but reserves the right to produce far greater numbers at the

11

sentencing hearing. As such, the defense will not only have to verify the

12

information in the government’s new speadsheets, but will have to

13

continue its exhaustive search of all of the other documents. In the end,

14

counsel will need to advise his client about the risks that the data

15

contains more exposure.

16

13.

I believe that it will require another 120 days to complete the search

17

of the discovery. Mr. Stone and Mr. Scales on behalf of their clients

18

concur in this request. They informed me that they expect their cases

19

will resolve by plea but that they need additional time to verify or

20

refute the government’s data. If co‐counsel, however, complete the task

21

sooner, they can request a plea hearing at that time.

22

14.

At the last court hearing on October 31, 2016, Mr. Rosas stated that

23

he needed about 30 to 45 days to complete his efforts to confirm

24

the government’s figures. He also stated that he would not be seeking to

25

set a trial date; and that he would be setting a date for entry of a

26

plea. After the hearing, Mr. Rosas informed counsel that he objected to a

27

continuance of 120 days. Mr. Rosas’s client, Mr. Dehinbo, however, will

28

not be prejudiced by a continuance of 120 days. He has not stated that he

APP. 28

6

Case 1:15-cr-00172-AA

Document 110

Filed 11/08/16

Page 7 of 8

1

needs a few extra weeks to prepare for trial and that he wants a trial

2

within 45 days; in fact, he needs additional time to schedule a plea. He

3

does not need to wait 120 days to schedule his plea, and he will not be

4

prejudiced if the remaining defendants need more time.

5

15.

For these reasons, I am requesting a continuance of 120 days for a Jury

6

Trial on behalf of my client, Mr. Animawun, and on behalf of Mr.

7

Olowaye and Michael Kazeem, represented by Mr. Stone and Mr.

8

Scales respectively.

9

16.

This request should not affect Emmanuel Kazeem’s request for

10

immediate trial. The other defendants will all be entering

11

guilty pleas, and the court will not be confronted with multiple

12

trials.

13
14

17.

I left a message for Assistant United States Attorney Byron Chatfield
about this motion, but have not yet received a response.

15

I, Terry Kolkey, declare under penalty of perjury that the foregoing facts are

16

true and correct to the best of my knowledge. Executed in Ashland, Oregon,

17

on November 8, 2016.

18

Terry Kolkey

19

______________

20

Terry Kolkey

21
22
23
24
25
26
27
28

APP. 29

7

Case 1:15-cr-00172-AA

Document 110

Filed 11/08/16

Page 8 of 8

1
2

UNITED STATES DISTRICT COURT

3

FOR THE DISTRICT OF OREGON

4
5
6
7
8
9
10
11

UNITED STATES OF AMERICA,

)
)
Plaintiff,
)
)
)
vs.
)
)
LATEEF ANIMAWUN, et al.,
)
)
Defendant.
)
_________________________________ )

CASE NO. CR 15-00172 AA
CR 16-00051 AA
ORDER GRANTING MOTION
FOR CONTINUANCE OF
TRIAL AND EXCLUDING TIME

12
13

Based upon the Motion of Defendant, the Court finds that good cause

14

exists to continue the Status Conference to __________________ , 2017,

15

and the Jury Trial to ____________________, 2017. The motion is granted

16
17

for defendants Animawun, Olowaye, Dehinbo, and Michael Kazeem.

18

Furthermore, IT IS ORDERED that the time until the jury trial be

19

deemed excludable pursuant to the Speedy Trial Act, 18 U.S.C. section

20

3161(h)(B)(8)(A).

21
22

Dated: ___________________

23
24

____________________________
United States District Judge

25
26
27
28

APP. 30

8

APPENDIX F

TRANSCRIPT OF HEARING OF NOV. 8,
2016 AT WHICH COURT GRANTS
GOVERNMENT’S MOTION TO CONTINUE
TRIAL 90 DAYS

APP. 31

Case 1:15-cr-00172-AA

Document 179-2

Filed 07/10/17

Page 1 of 17

1
1

UNITED STATES DISTRICT COURT

2

DISTRICT OF OREGON

3

THE HON. ANN AIKEN, JUDGE PRESIDING

4
5
6
7
8
9
10

UNITED STATES OF AMERICA,

)
)
Government,
)
)
v.
) No. 1:15-cr-00172-AA-1
)
EMMANUEL OLUWATOSIN KAZEEM,
)
)
Defendant.
)
___________________________________)

11
12
13

REPORTER'S TRANSCRIPT OF PROCEEDINGS

14

EUGENE, OREGON

15

TUESDAY, NOVEMBER 8, 2016

16

PAGES 1 - 17

17
18
19
20
21
22
23
24

Kristi L. Anderson
Official Federal Reporter
United States Courthouse
405 East Eighth Avenue
Eugene, Oregon 97401
(541) 431-4112
Kristi_Anderson@ord.uscourts.gov

25

APP. 32

Case 1:15-cr-00172-AA

Document 179-2

Filed 07/10/17

Page 2 of 17

2
1

APPEARANCES OF COUNSEL:

2
3

FOR THE GOVERNMENT:

4

Byron G. Chatfield
US Attorney's Office
310 West Sixth Street
Medford, OR 97501
541-776-3564
Fax: 541-776-3583
Email: byron.chatfield@usdoj.gov

5
6
7
8
9
10
11
12
13

FOR THE DEFENDANT EMMANUEL OLUWATOSIN KAZEEM:
Michael Levine
Levine & McHenry LLC
1001 SW Fifth Ave
Suite 1414
Portland, OR 97204
503-546-3927
Fax: 503.224-3203
Email: michael@levinemchenry.com

14
15

FOR THE DEFENDANT OLUWATOBI RUEBEN DEHINBO:

16

Justin N. Rosas
The Law Office of Justin Rosas
10 Crater Lake Avenue
Medford, OR 97504
541-245-9781
Fax: 541-773-8483
Email: justin@justinrosas.com

17
18
19
20
21
22
23
24
25

APP. 33

Case 1:15-cr-00172-AA

Document 179-2

Filed 07/10/17

Page 3 of 17

3
1

PROCEEDINGS

2

TUESDAY, NOVEMBER 8, 2016

3

THE CLERK:

Okay.

Everyone is here now, so now is

4

the time set for a hearing in the matter of the United

5

States of America v. Emmanuel Oluwatosin Kazeem, Case

6

No. 1:15-cr-00172, time set for status conference.

7
8
9

THE COURT:

Mr. Chatfield, could you give me an

update as to the status of this case, please.
MR. CHATFIELD:

Certainly, Your Honor.

This case,

10

we had a status hearing last Monday, and at that particular

11

hearing, all of the defendants' counsel except for

12

Mr. Levine had asked for a continuance of the case.

13

Mr. Levine asked that his case be scheduled for trial.

14

This particular case was declared a complex case

15

sometime ago, and it involves -- the discovery is

16

voluminous.

17

discovery, including e-mail, instant message, tax

18

information, and so on.

19

There is probably over 450,000 items of

The status right now with respect to the other

20

defendants, I had just noticed that Mr. Kolkey filed a

21

motion to continue that he represented at the last status

22

hearing that he was going to be filing and that he in fact

23

filed that.

24

continuance for his client as well as Mr. Stone's client.

25

And he has requested that -- for a 120-day

And I understand from reading this also that

APP. 34

Case 1:15-cr-00172-AA

Document 179-2

Filed 07/10/17

Page 4 of 17

4
1

Mr. Rosas's client, Mr. Dehinbo, was wanting a 45-day

2

continuance, the purpose of which was to continue to go

3

through the particular discovery material.

4

There was an issue with respect to the plea offers

5

out.

6

looking at particular amounts for intended loss that they

7

wanted to go through the discovery material and wanted the

8

extra time in order to do that.

9

There was an indication with respect to going through

There was a representation made in the motion that

10

was filed today that apparently the defendants other than

11

Mr. Kazeem would all be entering guilty pleas and that in

12

fact the only one asking for a trial would be Mr. Kazeem.

13

However, I notice that there is reference in the

14

affidavit that -- in the end it mentions that counsel, I am

15

talking about counsel other than Mr. Kazeem, would need to

16

advise their clients about the risks of the data that

17

contains more exposure to them that they wanted to review.

18

And so we are at the point right now with a trial

19

date that is scheduled for November the 22nd.

20

anticipate that if going to trial in this particular case

21

that we would be in the neighborhood of probably

22

approximately 25 witnesses.

23

I would

There would probably be exhibits in the

24

neighborhood of 200 or so exhibits, and it's considerable

25

documentary evidence.

The case involves charges of

APP. 35

Case 1:15-cr-00172-AA

Document 179-2

Filed 07/10/17

Page 5 of 17

5
1

conspiracy to commit mail and wire fraud, mail fraud counts,

2

wire fraud counts.

3

In addition to that, there are aggravated identity

4

theft counts.

5

overt acts.

6

Part of the conspiracy involves multiple

In looking at where the status is, Your Honor,

7

with respect to one of the defendants, Ms. Regan's client,

8

who is Osanyinbi, they have scheduled a change of plea

9

that's been set for December the 8th.

10

With respect to plea offers, we have extended plea

11

offers out for a period of time.

12

August the 31st, I believe, of this year, and there have

13

been no plea offers extended beyond that point.

14
15
16

The plea offers expired on

And I think that summarizes where we are at right
now.
THE COURT:

So you referenced something in the

17

motion -- well, Mr. Levine, tell me the status from your

18

client's perspective.

19

MR. LEVINE:

Your Honor, we are ready for trial on

20

November the 22nd.

21

week the codefendants represented that they were all

22

pleading -- going to plead guilty.

23

out numbers on -- loss numbers, but they all represented

24

they were going to plead guilty.

25

When I was at the status hearing last

My client wants his trial.

APP. 36

They did want to check

It's been set for

Case 1:15-cr-00172-AA

Document 179-2

Filed 07/10/17

Page 6 of 17

6
1

November 22nd, and we are prepared to go.

2
3

THE COURT:

Well, how many witnesses do you have

and are any motions to be filed?

4

MR. LEVINE:

Only in limine motions.

5

dispositive.

6

some evidentiary motions.

7

Nothing

There will be -- nothing dispositive.

THE COURT:

So here's what I am prepared to tell

8

you:

9

Tuesday before Thanksgiving, correct?

I am sure you have thought about this.

10

MR. LEVINE:

11

THE COURT:

Just

That's the

Yes, it is.
And I have a full calendar in Eugene

12

that Tuesday.

13

with 200 exhibits, 25 witnesses, and select a jury starting

14

on the 22nd?

And you are prepared to go to trial starting

15

MR. LEVINE:

16

THE COURT:

17
18
19
20
21

Yes.
And you are not interested in having

conversations, additional conversations with the government?
MR. LEVINE:
That's -- no.

I have had ongoing --

THE COURT:
Mr. Levine.

Oh, I didn't say that, Your Honor.

I don't know -- hold on.

Hold on,

Let me ask you a question.

22

MR. LEVINE:

23

THE COURT:

Oh, sure.
Mr. Reeves, can you tell me if they

24

have even summoned a jury for this case and if that's even

25

possible for the 22nd?

APP. 37

Case 1:15-cr-00172-AA

Document 179-2

Filed 07/10/17

Page 7 of 17

7
1
2
3

THE CLERK:
jury?

I am sorry, Judge.

If we can summon a

I don't believe -- I am sorry.
THE COURT:

I don't -- what I was -- I did some

4

preliminary checking.

5

there won't be time to pull a jury for the 22nd.

6
7
8
9

THE CLERK:

Correct me if I am wrong.

Oh.

No, Your Honor.

I am told

I am sorry.

Yes, that's correct at this point.
MR. LEVINE:

Well, Your Honor, if I may, on a side

moment just -- not to digress, but you mentioned plea

10

bargaining.

11

that's not appropriate.

I am not going to get into specifics.

12

THE COURT:

13

MR. LEVINE:

I know

That's right.
But there is one thing I would like

14

to inquire of the court as a matter of procedure for my own

15

understanding.

16

Under Rule 11 -- as the court is well aware, under

17

Rule 11(c) -- (c), 11(c)(3), if the parties agree to a

18

specific sentence, they can present that to the court, and

19

the court can defer accepting that upon preparation of a

20

plea agreement -- upon preparation of --

21
22
23

THE COURT:

I am perfectly -- I am very

knowledgeable about a Rule 11(c)(1)(C) plea.
MR. LEVINE:

Oh, okay.

Well, I just wanted to

24

know if the court -- I am not clear.

25

accept such pleas as a matter of course, for whatever

APP. 38

Some judges refuse to

Case 1:15-cr-00172-AA

Document 179-2

Filed 07/10/17

Page 8 of 17

8
1

reason.

2

pleas in general.

3

accept them or --

4

I don't know the court's position on those type of
If the court does accept them or doesn't

THE COURT:

Mr. Levine, if you have done any

5

work -- I have only been on this bench for 19 years.

6

never needed to accept an 11(c)(1)(C) plea.

7

tradition, and you can ask any defense lawyer and you can

8

ask any plaintiff's lawyer, I respect the plea agreements

9

reached.

10

I have

And I have a

If I were going to do something separate from a

11

plea agreement, I generally, before that's done, would allow

12

the defendant to withdraw their plea.

13

MR. LEVINE:

14

THE COURT:

15

11(c)(1)(C)'s.

16

necessary.

Okay.
I don't feel it's necessary to do

I have never been asked.

17

MR. LEVINE:

18

THE COURT:

It's not been

Okay.
So if you enter into a deal and

19

there's a range of sentence, I hear everybody out.

20

hear everybody out.

21
22

And you need to also understand that this was
designated a complex case.

23

MR. LEVINE:

24

THE COURT:

25

But I

Yes.
That there are multiple defendants in

this case, and I generally have a history of sentencing

APP. 39

Case 1:15-cr-00172-AA

Document 179-2

Filed 07/10/17

Page 9 of 17

9
1

commensurate to responsibility.

2

MR. LEVINE:

3

all that completely.

4

THE COURT:

7
8
9
10
11

Of course.

I understand

But I have never --

(The reporter interrupted.)

5
6

Of course.

THE COURT:

I am sorry.

It's my connection.

That's all I have.
MR. LEVINE:

Your Honor, I am sorry.

I joined

late, but can I know who else is present on this call?
THE COURT:
called in late.

Well, you joined late because you

So we called the roll.

12

Call the roll again.

13

THE CLERK:

14

MR. CHATFIELD:

15

MR. ROSAS:

Justin Rosas.

16

THE COURT:

One of the defense counsel for one of

Okay.
This is Byron Chatfield.

17

the defendants is on the phone.

18

defense counsel did not feel the need to be on this call.

19

MR. LEVINE:

20

THE COURT:

21

Okay.

My courtroom deputy is on the call and

my court reporter is taking it down.

22

MR. LEVINE:

23

THE COURT:

24

MR. LEVINE:

25

Okay.

The remainder of the

All right.

So.

Thank you very much.

So what's your preference?
Well, the government -- as I

understand it, the government is not making a motion to

APP. 40

Case 1:15-cr-00172-AA

Document 179-2

Filed 07/10/17

Page 10 of 17

10
1

continue the case, and I am ready for trial.

2
3

MR. CHATFIELD:

We are making a motion to continue

the case.

4

MR. LEVINE:

5

MR. CHATFIELD:

Oh, I didn't know that.
It's not realistic to begin this

6

trial on the 22nd of this month.

7

MR. LEVINE:

8

I haven't received -- have you filed

this in writing?

9

MR. CHATFIELD:

I have not filed anything in

10

writing.

11

understood, with respect to the trial date.

I think we are dealing with the status, as I

12

MR. LEVINE:

13

We oppose the motion.

14

November 22nd, but the court -- of course, the court decides

15

these things.

16
17
18

THE COURT:

Well, it's the government's motion.
We are ready to go to trial on

Mr. Chatfield, do you want to say

anything further?
I don't know what your question was about the

19

11(c)(1)(C) plea.

20

explained that we have never needed to use that in the

21

Southern Division.

22

don't know -- I assumed what you were implicating by asking

23

me that question is there are still ongoing negotiations and

24

you and your client are interested in certainty with regard

25

to a disposition.

You asked if I knew about it, and I

No one has asked us to use that.

APP. 41

I

Case 1:15-cr-00172-AA

Document 179-2

Filed 07/10/17

Page 11 of 17

11
1

MR. LEVINE:

2

THE COURT:

Yes.

Yes.

Then you need to negotiate with

3

Mr. Chatfield, and if there is a plea offer, then to be

4

specific in the plea offer and put that in the plea offer.

5

Am I missing something, Mr. Chatfield?

6

MR. LEVINE:

7

THE COURT:

8

Am I missing something, Mr. Chatfield?

9

MR. CHATFIELD:

Well, that's -Wait.

Hold on.

I don't believe so.

I think that

10

with respect to the (c)(1)(C), obviously it comes into --

11

with respect to a specific sentence, and that's -- that's

12

the issue.

13

MR. LEVINE:

14

THE COURT:

15

MR. LEVINE:

17

THE COURT:

MR. LEVINE:

20

THE COURT:

24
25

So your preliminary discussion needs

Of course.
If you get that far, then you need to

approach me.

22
23

Of course.

to be with him.

19

21

Well, number one, first, Mr. Levine,

Mr. Chatfield would need to agree with that.

16

18

Well -- I am sorry.

MR. LEVINE:
Honor.

Yes, that's all I am asking, Your

I understand that.
THE COURT:

I don't have -- I mean, if you have a

concern, then if that's going to allay your concern and

APP. 42

Case 1:15-cr-00172-AA

Document 179-2

Filed 07/10/17

Page 12 of 17

12
1

Mr. Chatfield is agreeable, it doesn't matter to me.

2

just telling you no lawyer has needed to do that.

3

MR. LEVINE:

4

THE COURT:

5

MR. LEVINE:

6
7

Okay.

I am

I appreciate it.

And everything was fine.
Thank you.

It does allay my concern.

Thank you.
THE COURT:

Mr. Chatfield, anything further?

8

explain the basis of your motion.

9

MR. CHATFIELD:

Or

The basis of my motion, Your

10

Honor, is because of the complex nature of the case, I think

11

I have outlined that, and with the number of witnesses and

12

the exhibits with respect to the trial date, dealing with

13

Mr. Kazeem's case, it seems that it's reasonable to have

14

this particular case set out approximately 90 days if we are

15

going to actually go to trial and have a firm trial date.

16

THE COURT:

17

MR. CHATFIELD:

How many days did you ask for?
I mentioned 90 days I think would

18

be a reasonable period of time.

19

THE COURT:

20

MR. CHATFIELD:

21

THE COURT:

22

90 days?

I am having trouble hearing too.

That's why I am just trying to make sure I hear.

23

MR. CHATFIELD:

24

THE COURT:

25

Yes.

I am sorry.

Yes.

90 days.

This has been designated, and I

believe I have been involved at least on one occasion that

APP. 43

Case 1:15-cr-00172-AA

Document 179-2

Filed 07/10/17

Page 13 of 17

13
1

this discovery was going to be in the amount as indicated,

2

you know, up to 200 exhibits, and I knew there was

3

substantial document review that needed to take place along

4

with the witnesses.

5

But I am more concerned we didn't -- I mean, to

6

scramble and get a jury next week is very, very -- is not

7

timely and is very difficult for the court.

8
9
10

And we got this hearing on as soon as we learned
that there was not an agreement about how to proceed in the
complexity of this particular case.

11

I am happy to set a date 90 days from now.

12

Is your client in custody?

13

MR. LEVINE:

14

My client is in custody.

15

THE COURT:

MR. LEVINE:

22

I can't hear you.

I can't

All right.

My client is in custody.

Did the court hear me?

20
21

I'm sorry.

hear you.

18
19

For the record, we

object to the continuance.

16
17

Your Honor, this is Michael Levine.

THE COURT:

I heard that your client is in

custody.
MR. LEVINE:

For the record, we object to the

23

motion to continue.

24

the motion, if the court is going to grant the motion, I

25

would ask the court to set the trial for sometime in March.

However, if the court is going to grant

APP. 44

Case 1:15-cr-00172-AA

Document 179-2

Filed 07/10/17

Page 14 of 17

14
1

The reason is I have already scheduled a trip to Florida to

2

visit my 95-year-old mother-in-law for a week, and I also

3

have a PCR trial on the 21st of February.

4
5

So March is wide open for me, and I'd ask the
court to set the date somewhere in March.

6
7

THE COURT:

Anything for the record that you need

to say, Mr. Chatfield?

8

MR. CHATFIELD:

9

THE COURT:

No, Your Honor.

I am going to grant the motion to

10

postpone.

11

ready given the complexity of this case, and it's important,

12

I think, that we proceed to resolve those other defendants

13

and set them all at the same time.

14
15

I am going to tentatively set a trial date for
the -- how long will this case take to try?

16
17

I don't think it's realistic that people can be

MR. CHATFIELD:
at least five days.

18

THE COURT:

19

MR. LEVINE:

20

MR. CHATFIELD:

21
22
23
24
25

My estimate, Your Honor, would be

How about the 7th of March?
That's good for me, Your Honor.
That's fine with us too, Your

Honor.
THE COURT:

And when are those change of pleas

starting to be scheduled?
MR. CHATFIELD:

The first one is scheduled for

December the 8th.

APP. 45

Case 1:15-cr-00172-AA

Document 179-2

Filed 07/10/17

Page 15 of 17

15
1

THE COURT:

2

MR. CHATFIELD:

And how many are after that?
There is no other scheduled dates.

3

That's the only one that has been scheduled, and that's

4

Ms. Regan's -- Mr. Osanyinbi.

5

THE COURT:

6

And please make sure all those

sentencings end up on my calendar, please.

7

MR. CHATFIELD:

8

THE COURT:

9
10

All right?

Yes.

Once those change of pleas are

completed, have them all on my calendar because they need to
be with one judge.

11

So we'll set this out to March 7th.

12

I would ask -- we'll set a pretrial conference

13

date.

14

be in Medford in February, so we ought to be able to do a

15

pretrial conference in February.

16

work for you, Mr. Levine?

17

I am looking -- I don't think I have -- I am going to

MR. LEVINE:

I am assuming that will

Yes, it will, Your Honor.

18

February 14th is good or -- yeah, February 14th or that week

19

is very good for me.

20

THE COURT:

21

17th.

I will do it on the 16th.

22

MR. LEVINE:

23

THE COURT:

24
25

I will be in Medford on the 16th and

That's good.
We'll --

(The reporter interrupted.)
THE COURT:

Schedule accordingly so I have plenty

APP. 46

Case 1:15-cr-00172-AA

Document 179-2

Filed 07/10/17

Page 16 of 17

16
1

of time to do it on the 16th.

2

THE CLERK:

3

MR. LEVINE:

4

telephone?

5
6

THE COURT:

8

THE COURT:

You

Okay.

Okay.

Is there anything else I need to take

up?

10

MR. CHATFIELD:

Nothing from the government, Your

Honor.

12
13

No, not in a pretrial conference.

need to appear in person at a pretrial conference.
MR. LEVINE:

11

And Your Honor, may I appear by

I will try to get down there.

7

9

Yes, Judge.

MR. LEVINE:

Nothing from me, Your Honor.

you.

14

THE COURT:

Thank you.

15

THE CLERK:

Thank you all.

16

(The proceedings were concluded this

17

8th day of November, 2016.)

18
19
20
21
22
23
24
25

APP. 47

We are in recess.

Thank

Case 1:15-cr-00172-AA

Document 179-2

Filed 07/10/17

Page 17 of 17

17
1

I hereby certify that the foregoing is a true and

2

correct transcript of the oral proceedings had in the

3

above-entitled matter, to the best of my skill and ability,

4

dated this 12th day of June, 2017.

5
6
7

/s/Kristi L. Anderson
_______________________________________________
Kristi L. Anderson, Certified Realtime Reporter

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

APP. 48

APPENDIX G

EXCERPT FROM KAZEEM’S OPENING
BRIEF ON APPEAL

APP. 49

for clear error. United States v. Martinez-Martinez, 369 F.3d 1076, 1084
(9th Cir. 2004).
2. The time period resulting from the continuance granted to the
government on November 8, 2016, was not excludable under the
STA.
Congress passed the STA to effectuate the Sixth Amendment right to
a speedy trial. United States v. Pollock, 726 F.2d 1456, 1459–60 (9th Cir.
1984). Pursuant to the STA, a defendant must be brought to trial within 70
days of the indictment or of his initial appearance before a judicial officer,
whichever is later. 18 U.S.C. § 3161(c); Bloate v. United States, 559 U.S.
196, 218 (2010); United States v. Clymer, 25 F.3d 824, 827 (9th Cir. 1994).
Of course, the STA sets forth several types of so-called “excludable
delay”—periods of time which do not count toward the 70 day limit. See 18
U.S.C. § 3161(h). For example, the district court may exclude from the 70day calculation delay caused by a continuance ordered by the judge sua
sponte or upon motion of either party “if the judge granted such continuance
on the basis of his findings that the ends of justice served by taking such
action outweigh the best interest of the public and the defendant in a speedy
trial.” 18 U.S.C. § 3161(h)(8)(A). However, no exclusion is allowed under
this so-called “ends of justice” provision “unless the court sets forth in the
record of the case, either orally or in writing, its reasons.” Id. This
24
APP. 50

requirement protects against abuses of this provision. United States v. Frey,
735 F.2d 350, 352 (9th Cir. 1984). Congress intended that the ends of
justice continuance “be rarely used.” Id. See also United States v. Perez–
Reveles, 715 F.2d 1348, 1351 (9th Cir. 1983) (same).
Section 3161(h)(8)(B) of the STA enumerates factors which a judge
must consider in determining whether to continue the trial under the ends of
justice exception, including whether lack of a continuance “would deny
counsel for the defendant or the attorney for the Government the reasonable
time necessary for effective preparation, taking into account the exercise of
due diligence.” 18 U.S.C. § 3161(h)(8)(B)(iv).
At the status conference on November 8, 2016, the government orally
moved to continue Mr. Kazeem’s trial. The government argued that because
its case involved 200 exhibits and 25 witnesses, it was “not realistic” to
begin the trial on November 22. When asked by the court to explain its need
for the continuance, the government said it was “because of the complex
nature of the case . . . and with the number of witnesses and the exhibits with
respect to the trial date, dealing with Mr. Kazeem’s case.” The government
added that it was “reasonable to have this particular case set out
approximately 90 days if we are going to actually go to trial and have a firm
trial date.” Apart from its bald assertion that it was “unrealistic” to begin the
25
APP. 51

trial on November 22, and its reference to the number of witnesses and
exhibits, the government offered no specific reasons why trial could not
begin on November 22, given that it had been preparing its case for more
than four years.
The district court entered findings contemporaneously with its
granting of the government’s motion to continue. CR 111. The court found
that the ends of justice served by continuing the trial outweighed the best
interests of the public and defendant in a speedy trial because the additional
time was necessary “to afford counsel sufficient time to investigate the facts
of this case, to negotiate with the government, and to prepare for pretrial
motions and jury trial, if necessary.” Id. This finding was clearly erroneous
because it was not based on the record and was contrary to law.
This “ends of justice” provision was intended by Congress “to be
rarely used, and that the provision was not a general exclusion for every
delay.” United States v. Jordan, 915 F.2d 563, 565 (9th Cir. 1990) (citations
omitted). A district court may grant an “ends of justice” continuance only if
it satisfies two requirements: first, that the continuance be “specifically
limited in time”; and, second, that it is “justified [on the record] with
reference to the facts as of the time the delay is ordered.” Id. at 565-66.

26
APP. 52

This Court has repeatedly made clear that continuances under this
section “must be specifically limited in time and supported by clear, specific
findings, so that the excludability of any period of time is readily
ascertainable from the docket.” United States v. Hardeman, 249 F.3d 826,
828 (9th Cir. 2000). The reasons justifying the continuance “must be set
forth with particularity.” Perez-Reveles, 715 F.2d at 1352 (citations
omitted).
Here, the district court did make specific findings with respect to the
government’s motion to continue. The court’s findings, entered
contemporaneously on the docket “with particularity,” were that the
continuance was necessary “to afford counsel sufficient time to investigate
the facts of this case, to negotiate with the government, and to prepare for
pretrial motions and jury trial, if necessary.” CR 111. However, none of
these findings are supported by the record, and each is clearly erroneous.
a. Counsel did not request or need additional time to investigate the
facts; there is no “not realistic” exception to the STA.
The district court’s first justification was that additional time was
necessary “to afford counsel sufficient time to investigate the facts of the
case.” However, counsel for Mr. Kazeem did not need or ask for any more
time to investigate the facts; he repeatedly asserted the defense was ready for
27
APP. 53

trial. ER 31: 19-20, 25; ER 32: 11-15; ER 36: 1, 12-13; ER 39: 14-15; 2223. Nor did the government ever say that it needed more time to investigate
the case. This is not surprising since the government had already had almost
30 months since the indictment to investigate the facts, not to mention the
more than 12 months that elapsed from the beginning of the investigation
until the indictment.
The government argued that because it had 200 exhibits and 20
witnesses, it was “not realistic” to proceed to trial on November 22, 2017.
However, the government did not give any specific reasons why proceeding
on November 22 was “not realistic.” The district court “may not simply
credit the vague statements by one party’s lawyer” as to why a continuance
is needed. Jordan, 915 F.2d at 566. See United States v. Gonzales, 137 F.3d
1431, 1435 (10th Cir. 1998) (“there was no discussion concerning how much
time the prosecutor actually needed to prepare for trial and no discussion of
what preparations he had already made,” and noting that without that
information, it could not assess “how the district court adequately could
have determined whether denial of a continuance would have deprived the
prosecutor of ‘reasonable time necessary for effective preparation’ [] let
alone whether the purported reasons for granting the continuance
outweighed the best interests of the public and Gonzales in a speedy trial.”).
28
APP. 54

Here, as in Gonzales, “there was no discussion of what preparations
[the prosecutor] had already made.” Without this information, it is not clear
“how the district court adequately could have determined whether denial of a
continuance would have deprived the prosecutor of reasonable time
necessary for effective preparation . . . let alone whether the purported
reasons for granting the continuance outweighed the best interests of the
public and [Mr. Kazeem] in a speedy trial.”
Most importantly, there is no “not realistic” exclusion to the STA. By
saying it was “not realistic” to go to trial in two weeks, the government was
saying simply that it was not yet ready for trial, i.e., it had not yet organized
its exhibits, had not yet subpoenaed some of its witnesses, or had not yet
finalized its trial strategy. In other words, the government sought a
continuance because it had not diligently prepared the case. This reason is
legally insufficient to justify excludable time under the STA. See 18 U.S.C.
§ 3161(h)(7)(C) (“no continuance under subparagraph (A) of this paragraph
shall be granted because of . . . lack of diligent preparation or failure to
obtain available witnesses on the part of the attorney for the Government”);
United States v. Harden, 10 F.Supp.2d 556, 559-60 (D.S.C., 1997) (district
court violated STA by granting government’s motion for continuance to file
indictment based on claim that due to number of defendants and prosecutor’s
29
APP. 55

involvement in ongoing trial, prosecutor would be unable to adequately
prepare indictment by time of next available grand jury).
In sum, the district court’s finding that a continuance was necessary
“to afford counsel sufficient time to investigate the facts of this case” was
not based on the record, was clearly erroneous, and was contrary to law.
b. The defense did not need or want additional time to negotiate a
plea agreement, which in any event is not excludable time under the
STA.
The second justification for the district court’s granting the
government’s motion was to afford defense counsel sufficient time “to
negotiate with the government.” Defense counsel, however, had repeatedly
stated he was ready for trial notwithstanding ongoing negotiations. Nowhere
did he (or the government) ever suggest that a continuance was being sought
to enable the Mr. Kazeem to reach a plea agreement. Furthermore, time to
reach a plea agreement is non-excludable time under the STA. As the Ninth
Circuit has held, “[n]egotiation of a plea bargain is not one of the factors
supporting exclusion.” United States v. Ramirez-Cortez, 213 F.3d 1149,
1155 (9th Cir. 2000).
c. The defense did not need or ask for time for additional motions.
The district court’s next justification for the continuance was to afford
counsel time “to prepare for pretrial motions and jury trial, if necessary.” Id.
30
APP. 56

However, defense counsel had stated that he was not going to be filing any
motions (apart from in limine) and that he was ready for trial. Therefore, the
court’s finding in this regard is contrary to the record and clearly erroneous.
d. Court congestion and an unavailable judge or jury is not
excludable time under the STA.
At the telephone status conference on November 8, 2016, the district
Court stated that it could not try the case on November 22, 2016, because it
had a “full calendar in Eugene” on that date. However, general court
congestion is not a permissible reason to exclude time under the STA. See
18 U.S.C. § 3161(h)(8)(C) (“No continuance shall be granted [in the
interests of justice] because of general congestion of the court’s calendar.”);
United States v. Engstrom, 7 F.3d 1423, 1426–27 (9th Cir. 1993) (“Section
3161(h)(8)(C) clearly forbids granting continuances because of general
congestion of the court's calendar.”).
The district court also believed it would not be possible to assemble a
jury for a trial on November 22, 2017. That trial date, however, had been set
by Magistrate Judge Clark on July 29, 2016 more than a year earlier;
assembly of the jury pool should have begun then. Moreover, the defense
expressly alerted the court at the hearing before Magistrate Judge Clark on

31
APP. 57

October 31, 2016, three weeks earlier, that Mr. Kazeem was ready for trial,
so assembly of a jury should have begun at that time at the latest.
Most importantly, not having time to assemble a jury is not among the
time periods listed as excludable delay under the STA. The unavailability of
a jury is analogous to the unavailability of a trial judge. This contingency is
considered the same as “court congestion” for which time is not excludable.
See United States v. Crane, 776 F.2d 600, 603-06 (6th Cir. 1985) (“the trial
judge’s unavailability was caused at least partially by his presiding over
another case and was therefore attributable to ‘general congestion of the
court’s calendar’ . . . thus, the judge’s absence is not a proper reason for an
ends of justice continuance.”); United States v. Smith, 588 F. Supp. 1403,
1405 (D. Ha. 1984) (where fraud trial was continued beyond STA date
because of unavailability of judge, case dismissed because “general court
congestion” impermissible grounds to continue case); 18 U.S.C. §
3161(h)(8)(C) (“No continuance shall be granted [in the interests of justice]
because of general congestion of the court's calendar.”). Unavailability of a
jury is not grounds for excludable time under the STA.

32
APP. 58

e. There was no need to keep all the defendants together because all
were pleading guilty except Mr. Kazeem.
At the hearing, the District Court stated it was important “to proceed
to resolve those other defendants and set them all at the same time.”
This justification was insufficient to continue Mr. Kazeem’s trial because
all codefendants had said they were going to plead guilty. Speaking for
all of the codefendants, attorney Kolkey had told the court that “all will
be entering guilty pleas, and the court will not be confronted with multiple
trials.” ER 7 ¶ 16. He expressly noted that for that reason the codefendants’
request for a continuance “should not affect Emmanuel Kazeem’s request
for immediate trial.” Id. Tellingly, the District Court recognized as much
by not including this justification in its contemporaneous docket entry
granting the continuance.
Furthermore, the continuance sought by the codefendants was
unreasonable with respect to Mr. Kazeem. Although Mr. Kazeem did
not explicitly move to sever, his objection to the continuance was an
implicit motion to sever, and the court should have let his trial proceed as
scheduled, postponing the next appearance of the codefendants. It is true
that in general “an exclusion from the Speedy Trial clock for one defendant
applies to all codefendants.” United States v. Messer, 197 F.3d 330, 336
33
APP. 59

(9th Cir. 1991); 18 U.S.C. § 3161(h)(7). However, the attribution of delay to
a codefendant “is limited by a reasonableness requirement.” Id.
Here it was foregone conclusion that only Mr. Kazeem was insisting
on trial. Attributing the delay from the codefendants’ continuance to Mr.
Kazeem was unreasonable because it was not necessary to insure a joint
trial. See United States v. Hall, 181 F.3d 1057, 1062-63 (9th Cir. 1999)
(STA violated because “unlike other cases where carrying along a
codefendant is necessary to insure a joint trial [here] it was neither necessary
nor reasonable to delay Hall’s trial for that purpose.”); Messer, 197 F.3d at
336 (STA violated because granting continuance on government’s motion
because of delay in bringing codefendant before the court was unreasonable
as to the defendant).
Finally, the government and district court were aware that Mr.
Kazeem had repeatedly objected to any further continuances and repeatedly
stated that he was ready for trial on November 22. In such circumstances, it
is not reasonable to attribute the delay to Mr. Kazeem. See Hall, 181 F.3d at
1063 (“The court had a responsibility to determine the reasonableness of
carrying [the defendant] along in [the codefendant’s] continuances in light of
[the defendant’s] repeated objections to the continuances”).

34
APP. 60

f. The district court’s contemporaneously filed justifications for
granting the continuance render irrelevant the court’s subsequent
justifications entered more than seven months later when it denied the
motion to dismiss.
In its opinion denying the defense motion to dismiss, the court gave
additional reasons for having granted the government’s motion to continue.
Preliminarily, the court noted that it was “not required to document the
findings supporting a continuance contemporaneously with the granting of
the continuance and may record those findings for the first time in response
to a motion to dismiss.” ER 77. The court cited United States v. Bryant,
726 F.2d 510, 511 (9th Cir. 1984), and United States v. Medina, 524 F.3d
974, 986 (9th Cir. 2008), to support its statement.
In Bryant this Court observed that “Although the Act requires that the
trial court prepare a record, we find nothing in either the language or the
purpose of the Act that requires the court to prepare the record at the precise
moment it grants a continuance.” And in Medina, this Court observed that a
district court may document its findings for the first time when ruling on a
motion to dismiss. The district court’s reliance on these cases, however, was
misplaced because the district court’s statement of reasons for the
continuances was not “the first time” the court was giving its reasons for
35
APP. 61

granting the government’s motion to continue the case. With respect to the
government’s oral motion to continue of November 8, 2016, the court had
already given its justifications for granting the motion in its docket entry on
that date. CR 111. The same is true with respect to Olawoye’s motion to
continue the case which was granted on February 2, 2017. CR 129.
Furthermore, when giving its reasons for the first time, the reasons
stated by the district court must be “the actual reasons that motivated the
court at the time the continuance was granted,” and not pretextual reasons or
reasons developed post hoc. Engstrom, 7 F.3d at 1426 (quoting United
States v. Crawford, 982 F.2d 199, 204 (6th Cir.1993)). See also Frey, 735
F.2d at 352 (“nunc pro tunc findings failed to demonstrate that [the court]
originally based its delay in scheduling Frey’s trial on any of the factors
relevant to section 3161(h)(8)(A).”); Jordan, 915 F.2d at 566 (“a court may
not subsequent to the grant of a continuance, undertake for the first time to
consider the factors and provide the findings required by section
3161(h)(8)(A)”) (internal citation and quotation omitted).
In its order denying Mr. Kazeem’s motion to dismiss the indictment
under the STA, the court wrote for the first time that its decision to grant the
continuance on November 8, 2016, “was guided by the principle that Mr.
36
APP. 62

Kazeem should be tried together with his codefendants.” ER 78. This was a
significant overstatement. As shown above, the District Court’s
contemporaneous docket entry granting the continuance did not justify the
granting of the motion on this ground. It is true that at the hearing on the
government’s motion, the court stated that it was important “to proceed to
resolve those other defendants and set them all at the same time.”
However, as stated above, all codefendants stated they were going to
(and ultimately did) plead guilty. The court recognized as much by not
including in its contemporaneous order that it was granting the
government’s motion in order to keep all the defendants together.
Furthermore, the court’s passing reference to this justification at the
status conference does not satisfy the “ends of justice” exclusion. See
Zedner v. United States, 547 U.S. 489, 507 (2006) (“§ 3161(h)(8)(A) is not
satisfied by the District Court’s passing reference to the case’s complexity in
its ruling on petitioner's motion to dismiss. Therefore, the 1997 continuance
is not excluded from the speedy trial clock”).
As a second post hoc justification, the District Court wrote that
Mr. Kazeem could not have been ready for trial on November 22, 2016,
because he had not requested a Yoruba interpreter by November 8, 2016,
37
APP. 63

and did not do so until June 26, 2017. ER 79, n.4. This is a red herring.
On November 8, 2016, trial counsel did not believe an interpreter was
necessary. Once the court continued the trial, out of an abundance of
caution and further reflecting on the matter, he did ask for an interpreter.
As it turned out, the interpreter was never used.
In its order the District Court also reiterated its justification for
granting the continuance on the ground that there was not enough time for
pretrial motions and other trial preparations between the November 8, 2016,
hearing and a November 22, 2016, trial date, even taking into account the
exercise of due diligence on the part of the attorneys. ER 79. The court
reasoned that “[t]his assessment has been substantiated by the lengthy trial
preparations still underway.” Id. This justification is another red herring.
Once the trial court granted the continuance over defense objection, of
course the defense took advantage of the time to further prepare. The further
preparation does not mean that counsel was not ready for trial on November
22, 2019, as he repeatedly asserted he was. Undersigned counsel is not
aware of any case authorizing the district court to second-guess and refute
trial counsel’s own assessment of his readiness for trial, at least for purposes
of the STA. This is particularly true where the defendant himself is insisting
on trial by a certain date.
38
APP. 64

The district court also asserts in its opinion that it “was satisfied that
this delay was not the result of a lack of diligent preparation on the part of
the Government's attorney, or of a failure to obtain available witnesses.” ER
79. This is post hoc rationalization and not based on the record of the case.
The government’s articulated bases for its motion to continue speak for
themselves. The government’s references to the number of its witnesses and
exhibits can mean only that it did not have its witnesses subpoenaed, or had
not made travel arrangements for them to attend the trial, or had not
reviewed their prospective testimony with them. In short, the paradigmatic
example of a failure to diligently prepare for trial.
Tellingly, in its order denying the motion to dismiss, the court gave its
true reason for granting the continuance: the court “determined that it would
not be possible to summon a jury for trial on November 22, 2016.” ER 75.
As shown above, however, the time to assemble a jury is not excludable
under the STA.
The STA clock began on June 22, 2015. The trial began on July 31,
2017, more than 700 days later. At the very least, the non-excludable time
resulting from the 90-day continuance granted the government over the
defendant’s objection exceeded the 70 days permitted under the STA;
therefore, this Court should reverse the conviction below and remand the
39
APP. 65

case to the district court to determine if the indictment should be dismissed
with or without prejudice.
3. The 90-day continuance granted on Mr. Roloff’s motion on
February 2, 2017, was unreasonable as to Mr. Kazeem and was,
therefore, not excludable time under the STA.
Mr. Roloff’s motion, not served on Mr. Kazeem, was to continue the
trial for his client, Mr. Olawoye. His motion made no mention of any of the
other codefendants, much less Mr. Kazeem. In granting, the motion,
however, the district court entered the following order on the docket:
ORDER: Granting [motion 125] Motion to Continue as to
Oluwamuyiwa Abolad Olawoye (5), Lateef Aina Animawun
(3) and Emmanuel Oluwatosin Kazeem (1). The Court finds
that the ends of justice served by granting the continuance
outweigh the best interest of the public and defendant in a
speedy trial. It is Ordered that 90 days are excluded under the
Speedy Trial Act, commencing on (03/23/2017). Jury Trial is
reset for 5/30/2017 at 09:00AM in Medford before Judge Ann
L. Aiken. Ordered by Judge Ann L. Aiken.
C.R. 129 (emphasis added). This finding does not justify 90 days of
excludable time for Mr. Kazeem for several independent reasons.
First, Mr. Roloff’s motion to continue was made only for his client
Mr. Olawoye; the motion did not refer to any other codefendant, much less
Mr. Kazeem. Tellingly, the order granting the motion erroneously states that
the motion to continue was made also by Mr. Kazeem.

40
APP. 66

APPENDIX H

EXCERPT FROM GOVERNMENT’S
ANSWERING BRIEF ON APPEAL

APP. 67

Case: 18-30145, 09/30/2019, ID: 11449352, DktEntry: 26, Page 18 of 36

objections. (ECF Nos. 11, 129). Each of these continuances took into account the
complex nature of the case and the preference for joint trials. (ER 80-83).
For example, in November 2016, the court was faced with Kazeem and three
other co-defendants who had not resolved their cases. Of those four, only Kazeem
said he was ready for trial. (ER 22, 75). Kazeem made that assertion on October 31,
less than a month before the proposed trial date, without any prior indication that he
intended to proceed to trial in a complex international fraud case. The other defense
counsel and the government told the court additional time was needed to adequately
prepare the case. (ER 29).
Kazeem’s announcement at the October 31 status conference that he was ready
to proceed to trial came as a surprise to his co-defendants, the government, and the
court. He had not filed any motions or pretrial documents before that status
conference. And he made no attempt to file anything before the November 8 status
conference with the district court, even though it was scheduled for just two weeks
before the trial date. Kazeem had failed to even request an interpreter for trial, which
was very difficult to find. (ER 79 at n.4).
When the court found that maintaining the November 22 trial date was not
realistic, that finding recognized that Kazeem’s pitch was a ploy. (ER 40). This was
not a one day, single issue case; it was a complex white collar fraud case. Kazeem was
no more prepared to proceed to trial than anyone else in that room despite his

APP. 68

APPENDIX I

EXCERPT FROM KAZEEM’S REPLY BRIEF
ON APPEAL

APP. 69

ARGUMENT
A. THE STA WAS VIOLATED WHEN THE COURT GRANTED
THE GOVERNMENT’S MOTION TO CONTINUE THE TRIAL
OVER KAZEEM’S OBJECTION.
1. In asserting that it was surprised by Kazeem’s readiness for trial,
the government implicitly concedes it had not diligently prepared for
trial.
The government argues that the granting of the government’s motion
to continue the trial was justified because Kazeem’s announcement at the
October 31 status conference that he was ready for trial “came as a surprise”
to his co-defendants, the government, and the court. Gov. Br. at 13. This
was so, in the government’s view, because Kazeem had not filed any motions
or pretrial documents. Id. This argument is unpersuasive because there is no
law or rule requiring the defense to file pretrial motions or documents. To
the contrary, whether to file a motion is a matter of strategic choice. See
Strickland v. Washington, 466 U.S. 668, 681 (1984) (“Because advocacy is
an art and not a science, and because the adversary system requires
deference to counsel's informed decisions, strategic choices must be
respected in these circumstances if they are based on professional
judgment.”); see United States v. Mentz, 840 F.2d 315, 328 (6th Cir. 1988)
(“It is clear that Mentz did not need to file a formal motion seeking
discovery from the government.”).
1
APP. 70

Furthermore, the government points to nothing in the record showing
that Kazeem’s decision came as a surprise to the codefendants. On the
contrary, the record shows that co-counsel were fully aware of Kazeem’s
desire to try the case. See ER 26 ¶ 16 (attorney Kolkey states that his client
and all codefendants would “all be entering guilty pleas, and the court will
not be confronted with multiple trials.”). Kolkey expressly noted that
because all codefendants were pleading guilty, their request for a
continuance “should not affect Emmanuel Kazeem’s request for immediate
trial.” Id.
Furthermore, the government should not have been surprised. The
trial date of November 22 had been set by Magistrate Judge Clark on July
29, 2016, almost four months earlier. (ER 254 (Docket entry 103, setting
trial date of November 22, 2016)). Moreover, at the status conference on
October 31, 2016 before Judge Clark, Kazeem announced he was ready for
trial on November 22. (ER 254 (Docket entry 104); ER 20: 1-9).
In any event, there is no “surprise” exception to the STA. To the
contrary, in arguing that the government was surprised the government
concedes that it had not “diligentl[y] prepared for trial,” a justification that
Congress expressly rejected in the STA. See 18 U.S.C. § 3161(h) (7) (C)
(“no continuance under [the STA] shall be granted because of . . . lack of
2
APP. 71

diligent preparation or failure to obtain available witnesses on the part of the
attorney for the Government”).
The government does not claim that Kazeem misled or sandbagged the
prosecution into not preparing for trial, for example, by falsely representing
or suggesting that the defense was going to move a continuance. Cf. Zedner
v. United States, 547 U.S. 489, 505 (2006) (“This would be a different case
if … defense counsel had obtained a continuance only by [a false
representation]”); United States v. Alvarez-Perez, 629 F.3d 1053, 1062 (9th
Cir. 2010) (“But Alvarez never represented that the period from June 27 to
July 18 was excludable, nor did he argue to the court that July 18 was the
proper start date…”); Mentz, 840 F.2d at 331 (Because defense counsel’s
conduct “did not cause the trial to be scheduled outside the Act's 70–day
time limit, there is no indication he tried to “sandbag” the government….”).
In sum, in arguing that it was surprised, the government concedes it
had not diligently prepared for trial.
2. Kazeem’s statement of readiness for trial was not a ploy; and the
government is not a mind-reader.
The government argues that when the trial court stated that
maintaining the November 22 trial date was not realistic, “that finding
recognized that Kazeem’s pitch [that he was ready for trial] was a ploy.”
3
APP. 72

Gov. Br. at 13. This is a false argument. The district court’s statement was
not a finding of any kind, much less that Kazeem’s statement of his readiness
for trial was a “ploy.”
The government baldly asserts that Kazeem “was no more prepared to
proceed to trial than anyone else in that room despite his protestations to the
contrary.” Gov. Br. at 13-14. It asserts further “ninety days was necessary
for everyone, including Kazeem, to be ready for trial.” Id. at 14 (emphasis
added). The government arguments are breathtakingly wrong in every
respect. The government has many powers, but mind-reading is not yet one
of them. To say the Kazeem’s counsel was not ready for trial “despite his
protestations to the contrary,” purports to divine defense counsel’s state of
mind. Worse, it impugns the integrity of defense counsel, an officer of this
Court with 40 years of honorable trial and appellate experience here and
district courts of Hawaii, California, and Oregon.1

Undersigned counsel was the District of Hawaii’s first Federal Public
Defender having been appointed and re-appointed by this Court from
1982-1990. He has argued many appeals before this Court, and has been
publicly praised by the Court for zealous advocacy. See United States v.
France, 886 F.2d 223, 228 (9th Cir. 1988) (“Finally, we add a word about
the public defender who represented [the defendant]... he has represented
his client with vigor and diligence… it seems appropriate to commend
exceptional effort in an unusual case. This case was unusual and the
public defender's efforts were exceptional.”), aff’d by divided Court, 498
U.S. 335 (1991).

1

4
APP. 73

As an officer of the court, Kazeem’s counsel repeatedly asserted he
was ready for trial on November 22, 2017. [ER 20: 3-7; ER 31: 19-20, 25;
ER 31:25; 32-1; ER 36: 1, 12-13; ER 39: 14-15; 22-23], and he was indeed
ready. After all, he had spent two years preparing for trial. Unless the record
manifestly demonstrates otherwise, courts should and do credit the
statements of defense counsel in such matters. See Hernandez v. Chappell,
878 F.3d 843, 850-51 (9th Cir. 2017) (a court should “credit the statements of
defense counsel as to whether their decisions at trial were—or were not—
based on strategic judgments.”); Amado v. Gonzalez, 758 F.3d 1119, 1137
(9th Cir. 2014) (California courts have held that “[s]tatements of a
responsible officer of the court are tantamount to sworn testimony.”); United
States v. Boothe, 1996 WL 661330, at *3 (5th Cir. 1996) (trial court
reasonably relied on defense counsel’s “unequivocal statement as an officer
of the court that he was ready for trial.”).
Finally, to assert, as the government does, that “ninety days was
necessary for everyone, including Kazeem, to be ready for trial” is to have
the government’s attorney miraculously transform into defense counsel to

5
APP. 74

state how much time defense counsel really needed for trial. The
government’s would-be clairvoyance gives new meaning the term chutzpah.
In sum, the government’s baseless attack on defense counsel’s
integrity betrays the weakness of its arguments on the merits.
3. The preference for joint trials yields in this case to the strict
demands of the STA.
The government understandably places great reliance on the principle
that in cases involving multiple defendants, there is a preference for joint
trials. It is certainly true that for this reason reasonable delays as to one
defendant are normally excluded as to co-defendants. As the government
recognizes, however, whether a delay is reasonable “is decided on a case-bycase basis.” Gov. Br. at 12 (citing United States v. Hall, 181 F.3d 1057, 1062
(9th Cir. 1999)). Attribution of the excludable delay of one codefendant to
another codefendant “is not…automatic; rather, the period of delay must be
reasonable.” United States v. Stephens, 489 F.3d 647, 654 (5th Cir. 2007).
When the delay is not reasonable, this Court does not hesitate to find a
violation of the STA. See Hall, 181 F.3d at 1062-63 (STA violated because
“unlike other cases where carrying along a codefendant is necessary to
insure a joint trial [here] it was neither necessary nor reasonable to delay
Hall’s trial for that purpose.”); United States v. Messer, 197 F.3d 330, 336
6
APP. 75

